August 8, 2013

Mr. Richard T. Ginman
Director, Defense Procurement and Acquisition Policy
Office of the Under Secretary of Defense for Acquisition,
 Technology, and Logistics
Department of Defense


Dear Mr. Ginman:

Thank you for your memorandum dated May 14, 2013, regarding SIGAR’s recent audit report on the
Department of Defense’s (DOD) implementation of Section 841 of the Fiscal Year 2012 National
Defense Authorization Act (FY2012 NDAA), which prohibits contracting with the enemy. 1 As you
noted in your memorandum, DOD’s Office of Defense Procurement and Acquisition Policy (DPAP)
concurred with five of our seven recommendations and described specific steps it is taking to
address them. In particular, your memorandum described DPAP’s efforts to improve DOD’s visibility
over active contracts in Afghanistan; prevent duplication of data collection efforts; and ensure that
Heads of Contracting Activity (HCA) have the information needed to respond to legal challenges and
financial liabilities that result from exercising their Section 841 authorities. SIGAR welcomes these
actions and believes they will improve DOD’s ability to ensure U.S. taxpayer funds do not end up in
the hands of insurgents or others in opposition to coalition forces.

However, I was particularly troubled by DPAP’s refusal to concur with our recommendation to
require prime contractors to certify that they do not have subcontracts with the enemy. You
objected to SIGAR’s recommendation on the grounds that the Clinger-Cohen Act prohibits new
certification requirements unless those requirements are specifically imposed by statute or
approved by the Administrator of the Office of Procurement Policy.

Your objection ignores the fact that the Clinger-Cohen Act also permits agencies to issue new
certification requirements when they are approved in writing by the agency head, in this case the
Secretary of Defense. 2 Moreover, requiring this certification would be consistent with DOD's
obligation to award contracts only to "responsible" parties. If a company is subcontracting with the
enemy, how can it be responsible?

The FAR requires that no award is to be made to a contractor “unless a contracting officer makes an
affirmative determination of responsibility.” 3 Prime contractors are responsible for determining
the responsibility of their subcontractors and prospective contractors may also be required to




1
  SIGAR 13-6, Contracting with the Enemy: DOD Has Limited Assurance that Contractors with Links to Enemy
Groups Are Identified and their Contracts Terminated, April 11, 2013.
2
  41 U.S.C. 1304(b)(3).
3
  FAR 9.103(b),
provide written evidence of a subcontractor’s responsibility. 4 To be determined responsible, a
contractor must, among other things, have a “satisfactory record of integrity and business ethics.” 5

SIGAR believes that contractors that knowingly contract with the enemy do not have the integrity
and business ethics necessary to do business with the U.S. government. 6 Moreover, the FAR already
permits contracting officers to require that contractors provide certification of responsibility. 7
Therefore, unless DOD can explain to the Congress and U.S. taxpayers how a contractor that
knowingly contracts with supporters of the insurgency has the integrity and business ethics to
warrant a government contract, DOD should require contractors to certify that they do not have
subcontracts with the enemy.

Contrary to your memorandum, Section 842 is no substitute for a Section 841 certification. While
Section 842 authorizes the Secretary of Defense to investigate after the fact whether funds available
under the contract are being provided directly or indirectly to the enemy, a Section 841 certification
would impose an affirmative obligation on contractors before the fact to help prevent contracting
with the enemy.

Moreover, there is no indication that DOD is using the oversight authority granted by Section 842.
In fact, DOD reported to Congress that it did not take any action under Section 842 during fiscal year
2012. DOD’s apparent reticence to use this authority demonstrates the need for requiring
contractors to certify that they do not have subcontracts with Section 841 designees. A certification
requirement would put contractors on specific notice that they need to stand behind the
determinations they make regarding the responsibility of their subcontractors. 8

In sum, Section 841 was specifically intended to prohibit contracting with the enemy. SIGAR
believes that DOD should immediately exercise its authority to enforce this prohibition. To do
otherwise is contrary to both law and common sense.

I note also that DPAP only partially concurred with SIGAR’s recommendation to enforce DOD’s own
regulation requiring insertion of a no-contracting-with-the-enemy clause in DOD contracts. Your
response for this partial concurrence is that DPAP is accountable for DOD procurement policies and
regulations, while the HCAs are responsible for ensuring that contracting personnel under their
jurisdiction include all required clauses.

In my view, the fact that multiple HCAs are involved is not an adequate justification for not taking
action on this important matter. SIGAR’s recommendations were addressed to the Secretary of
Defense and we assume that senior DOD officials will take whatever action is necessary to
implement the Section 841 prohibition against contracting with the enemy. If DOD is either unable

4
  FAR 9.104-4(a).
5
  FAR 9.104-1(d).
6
  Recent court cases support this principle. See, e.g., NCL Logistics Co. v. United States, 109 Fed. Cl. 596, 608
(2012); Ettefaq-Meliat-Hai-Afghan Consulting, Inc. v. United States, 106 Fed. Cl. 429, 440 (2012)
7
  FAR 9.104-6.
8
  False certification would also permit DOD to take action under the False Claims Act. See Harrison v.
                                                    th
Westinghouse Savannah River Co., 176 F.3d 776 (4 Cir. 1998).
or unwilling to do so, please notify me immediately so that I can formally report this fact to the
relevant Congressional committees, as required by Section 5(d) of the Inspector General Act of
1978, as amended.




Sincerely,




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction



Enclosure
                                OFFICE OF THE UNDER SECRETARY OF DEFENSE




       •
                                                   3000 DEFENSE PENTAGON
                                                  WASHINGTON, DC 20301-3000




          ACQUISmON .                                                                       !JAY 14 2013
         TECHNOLOGY
         AHO LOGIS'TlC$



               MENfORANm JM FOR SPECIAL II\ SPECTOR GENERAL FOR AFGIIANISTAN
                                  RECONSTRUCTTON

               THROUUH: DIRECTOR, ACQUISITION RESOURCES Al\TD                       ANALYSIS ~~\\\".:)
               SUBJECT: Responst: to SIGAR Audit 13-6 on ''Contracting with the Enemy: DoD Has Limitt:d
                        Assuronce That Contractors with Links to Enemy Groups Are Identified and Their
                        Contracts Terminated~ (Report ·o. SICIAR-13-6)

                      As requested, I am providing responses to the geneml content and recommendations
               contained in the subject report.

               Re~ommendarion I : Require all Heads of Agency in the Central Command (CENTCOM)
               theater of operations, including Afghanistan, develop a standard mechanism for distributing
               Section 841 notification letters to their Head of Contracting Activities (HCAs).

               Response: Concur. Defense Procurement and Acquisition Poli~.:y (OPAP) will update Defense
               Federul Regulation Acquisition Supplement (OFARS) Deviation 2012-00005 to require
               contracting officers to check the " Identified entities undc;.'T :-IDAA FY2012 Section 841" list on
               the CENTCOM website prior to awarding conrmcts. See the DPAP response to
               Recommendation 4 below.

               Recommendation 2: Require al l HCAs with contract~ in the CENTCOM theater of operations,
               including Afghanistan, to develop a standard mechanism for distributing Section 841 notification
               letters to all prime contractors.

               Response: Concur. DPAP will update DFARS Class Deviation 2012-00005 to require
               contrncting officers to distribute section 84 1 notification letters to all prime contractors
               performing in the CF.\ITCOM theater of o perations.

               Recommendation 3: Direct HCAs to require prime contractors to certilY that they do not have
               subcontracts with Section 841 designees.

               R esponse: Non-Concur. The Clinger-Cohen Act prohibits requiring a certification hy a
               contractor or offeror, unless it is specifically imposed by statute or approved by the
               Administrator of the Office of Federall'rocurt:mt:nt Policy (Ref: FAR Subpart 1.1 07).

               When necessary, HCAs can gain visibility over their Sl.Jbcontraets by the statutory authority
               provided in section 842 of the FY2012 NDAA. Along with section 841 ofFY2012 NOAA,
               Dr:ARS Class Deviation 2012-00005 implemented section 842, which allows conlntcting




1550 Crystal Drive, 9th Floor      Mailing 2530 Crystal Drive            Tel 703 545 6000            www.sigar.mil
Arlington, Virginia 22202          Arlington, Virginia 22202-3940
               officers to examine Lhe records of the contractor. or any of its subconlnl~;tors to ensure funds
               available under the contracts arc not I) subject to extonion or corruption, or 2) provided directly
               or indirectly to the enemy.

               Reco mmenda tion 4: Require all DoD contracting agencies and prime contractors v.>ith contracts
               in lhe CENTCOM theater of operations to use an information system. such as the Joint
               Contingency Contracting System or the CENTCOM wehsite, to track the section 841
               designations.

               Response: Concur. DPAP and GI::NI"COM have coordinated and agreed to utili7.c the
               CEI\TCOM website as the information system in which to post the entities idcnti1ied in the
               CEl\TCOM Commander's Section 841 noti fic.:ation letters for contracting agencies and
               auU1orizcd prime contractors with contracts in the CP. TCOM theater of operations. This v.111
               be implemented in the DFARS Class Deviation IJ2012-0000S update.

               R ecommen dation 5: Enforce DFARS Class Deviation 2012-00005 tha1 require~ the Section
               ll41 c lause be induth:d in c.ontracts, unless HCAs provide justification Jor exemption.

               R esponse: Partially Concur. The Director, DPAP is accountable for l)ol) procurement policies
               and regulations. It is the HCAs' responsibility to ensure that contracting personnel under their
               juri~di~:tion include all required clauses. In the DFARS C lass Deviation #20 l 2-00005 update,
               DPAP will amplify the importance o f induding section 84 1 clauses in all non solicitations.

               Recommendation 6 : To prevent duplication of data collt:ctiun efforts, we recommend that the
               Director of the Office of Defense Procurement and Acquisition Policy, in coordination wilh the
               Commander of U.S. Central Command, formally as~ign either the Office of Defense
               Procurement and Acqui~ition Policy or CENTCOM the responsibility tor centrally tr.tcking, at a
               minimum, the number and value of contracts, grants, and cooperative agreements HCAs have
               restricted, terminated, or voided using their Section 841 authorities.

               Response: Concur. DPAP and CENTCOM have agreed to: l ) CENTCOM CCJ4 will centrally
               collect the sections 84 1 and 842 actions, resulting from CENTCOM Section 841 notification
               letters; 2) DPAP will use the CE:-.rTCOM datahnsc to prepare an annual report to Congress on
               the results of sections 841 and 842 authorities used during each calendar year.

               Recommendation 7: To ensure that IICAs have the information needed to respond to any legal
               challenges and financial liabilities resulting from exercising Section 841 authorities, we
               recommend that the Director of the Office of Defense Procurement and Acquisition Policy, in
               coordination wilh relevant agency contracting offices, develop and distribute guidance to HCAs
               about actions to take once they have restricted, terminated, or voided a contract under Section
               841.

               Rcspon~e: Concur. DPAP agrees with the recommendation that contracting officers require
               guidance to take neces~ary actions resulting from t he USCF:NTCOM section 84 1 notification
               letters. Such guidance is already provided in the Federal Acquisition Regulation (F/\R) 49.
               Termination ot'Cuntrdcts and FAR Part 9, Contractor Qualifications. FAR subparts 49.101 ,




                                                                2




1550 Crystal Drive, 9th Floor      Mailing 2530 Crystal Drive           Tel 703 545 6000           www.sigar.mil
Arlington, Virginia 22202          Arlington, Virginia 22202-3940
              Authorities and Responsibi lities and 49.105, Duties of Termination Contractin g Officer Aller
              lssuance of Notice of Termination, pro.,ide contracting olliccrs with their specific




                                                            4.J
              responsibilities and detailed guidance for contract/subcontract termination actions.

                      Please contact .\1s. Kyoung Lee.                                       , if additional
              ;ruo~tioo ;, requ;red.




                                                               3




1550 Crystal Drive, 9th Floor     Mailing 2530 Crystal Drive          Tel 703 545 6000           www.sigar.mil
Arlington, Virginia 22202         Arlington, Virginia 22202-3940
